EXHIBIT 1

USCA4 Appeal: 17-2127

Doc: 130

Filed: 02105/2019

Pg: 1 of 3

UNPUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 17-2127

ATTORNEY GRIEVANCE COMMISSION OF MARYLAND,
Plaintiff Appellee,
-

V.

JASON EDWARD RHEINSTEIN,
Defendant Appellant.
-

Appeal from the United States District Court for the District of Maryland, at Baltimore.
Marvin J. Garbis, Senior District Judge. (1: 1 7-cv-02550-MJG)

Submitted: January 28, 2019

Decided: February 5, 2019

Before WILKINSON and MOTZ, Circuit Judges, and TRAXLER, Senior Circuit Judge.

Dismissed in part and affirmed in part by unpublished per curiam opinion.

Jason E. Rheinstein, Appellant Pro Se. Brian E. Frosh, Attorney General of Maryland,
Michele J. McDonald, Assistant Attorney General, OFFICE OF THE ATTORNEY
GENERAL OF MARYLAND, Baltimore, Maryland, for Appellee.

Unpublished opinions are not binding precedent in this circuit.

• USCA4 Appeal: 17-2127

Doc: 130

Filed: 02/05/2019

Pg: 2 of 3

PER CURIAM:
Jason Edward Rheinstein appeals the district court's orders granting the Attorney
Grievance Commission of Maryland's motion to remand for lack of federal jurisdiction
and denying Rheinstein's emergency motion to stay remand pending appeal or for
reconsideration or for appropriate relief. We dismiss in part and affirm in part the district
court's orders denying the notice of removal and remanding the case to state court and
denying Rheinstein's emergency motion.
"An order remanding a case to the State court from which it was removed is not
reviewable on appeal or otherwise, except that an order remanding a case to the State
court from which it was removed pursuant to [28 U.S.C. §§ 1442 or 1443 (2012)] shall be
reviewable by appeal or otherwise." 28 U.S.C. § 1447(d) (2012). Rheinstein removed
the action pursuant to the federal officer removal statute, 28 U.S.C. § 1442, and, pursuant
to 28 U.S.C. §§ 1331, 1441(a (2012), on the ground that it presented a federal question.
A defendant seeking to remove a case under Section 1442 must
establish (1) [he] is a federal officer or a person acting under that officer;
(2) a colorable federal defense; and (3) the suit is for an act under color of
office, which requires a causal nexus between the charged conduct and
asserted official authority.
Northrup Grumman Tech. Sen's., Inc. v. DynCorp Int'l LLC, 865 F.3d 181, 186 (4th Cir.
2017) (internal citations and quotation marks omitted). Because Rheinstein failed to
meet his burden of establishing that he met these criteria, we affirm the portion of the
district court's orders remanding for lack of subject matter jurisdiction under the federal
officer removal statute and denying the emergency motion. The remainder of the appeal

2

USCA4 Appeal: 17-2127

Doc: 130

Filed: 02/05/2019

Pg: 3 of 3

must be dismissed because this court lacks jurisdiction to review the district court's order.
See 28 U.S.C. § 1447(d).
We therefore dismiss the appeal in part and affirm in part. We dispense with oral
argument because the facts and legal contentions are adequately presented in the
materials before this court and argument would not aid the decisional process.
DISMISSED IN PART,
AFFIRMED IN PART

3

EXHIBIT 2

•USCP4 Appeal: 17-2127

Doc: 134

Filed: 03/11/2019

Pg: 1 of 1

FILED: March 11, 2019
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 17-2127
(1:17-cv-02550-MJG)

ATTORNEY GRIEVANCE COMMISSION OF MARYLAND
Plaintiff Appellee
-

JASON EDWARD RHE[NSTEIN
Defendant Appellant
-

ORDER

The court denies the petition for rehearing and rehearing en banc. No judge
requested a poll under Fed. R. App. P. 35 on the petition for rehearing en banc.
Entered at the direction of the panel: Judge Wilkinson, Judge Motz, and
Senior Judge Traxier.
For the Court
Is! Patricia S. Connor, Clerk

/

